                                                                 Issue Date
                                                                          September 29, 2009
                                                                 Audit Report Number
                                                                              2009-BO-1012




TO:         Phillip Murray, Deputy Assistant Secretary for Single Family Housing, HU


FROM:
            John Dvorak, Regional Inspector General for Audit, Boston Region, 1AGA


SUBJECT: James B. Nutter and Company, Kansas City, Missouri, Complied with HUD’s
           Regulations, Procedures, and Instructions for the Underwriting and Closing of
           FHA-Insured HECM Loans Originated by First Call Mortgage Company


                                   HIGHLIGHTS

 What We Audited and Why


             We reviewed Federal Housing Administration (FHA)-insured home equity
             conversion mortgage (HECM) loans originated by First Call Mortgage Company
             (First Call) and sponsored by James B. Nutter & Company (J.B. Nutter) during
             the period of January 2007 to December 2008. We reviewed these loans because
             in September 2008 state banking regulators from New Hampshire and
             Massachusetts found that First Call used deceptive business practices and did not
             have the proper state licensing to originate reverse mortgages. As a result, we
             wanted to determine if any FHA HECM loans originated by First Call were
             adversely affected.

             The primary purpose of our review was to determine whether J.B. Nutter acted in
             a prudent manner and complied with the U.S. Department of Housing and Urban
             Development’s (HUD) regulations, procedures, and instructions for the
             underwriting and closing of FHA-insured HECM loans.
What We Found


           J. B. Nutter acted in a prudent manner and complied with HUD’s regulations,
           procedures, and instructions for the underwriting and closing of FHA-insured
           HECM loans selected for review.


What We Recommend


           This report contains no formal recommendations, and no further action is
           necessary.


Auditee’s Response


           An exit conference was held on September 24, 2009, with lender officials from
           J.B. Nutter. The report did not require a response from the auditee and no formal
           comments were provided.




                                           2
                         TABLE OF CONTENTS

Background and Objective                                                    4

Results of Audit                                                            6

Scope and Methodology                                                       7

Internal Controls                                                           9

Follow-up on Prior Audits                                                   10

Appendix - Analysis of Critical Documents from the Loan Origination Files   11




                                       3
                           BACKGROUND AND OBJECTIVE

The National Housing Act, as amended, established the Federal Housing Administration (FHA),
an organizational unit within the U.S. Department of Housing and Urban Development (HUD).
The Housing and Community Development Act of 1987 established a federal mortgage
insurance program, Section 255 of the National Housing Act, to insure home equity conversion
mortgages (HECM). FHA1 provides insurance to private lenders against losses on mortgages
financing homes.

The objective of the HECM program is to enable elderly homeowners to convert equity in their
homes, generally limited to dwellings with one- to four-family units, to monthly streams of
income or lines of credit. These loans are also known as reverse mortgages. Borrowers, aged 62
and older, may use the equity to supplement their lifestyle, pay off bills, or make needed repairs
to the home. Lenders offer borrowers a range of payment plan options as well as varying interest
rates depending on the plan chosen. The borrower retains ownership of the property and may
sell the home and move at any time, keeping the sales proceeds in excess of the mortgage
balance. Lenders cannot force the borrower to sell the home to pay off the mortgage, even if the
mortgage balance grows to exceed the value of the property. A borrower does not have to repay
an FHA-insured reverse mortgage until the borrower moves, sells, or dies. When the loan is due
and payable, if the loan exceeds the value of the property, the borrower (or the heirs) will owe no
more than the value of the property. In order to be qualified for a HECM loan, the homeowners
must attend HECM counseling from a HUD approved counseling agency, and requires a
counseling certificate before a HECM approved lender can originate such loan.

HECM is a unique loan product because the risk cannot be measured by a standard mortgage
default rate. Risk to FHA is mitigated by proper origination and servicing by the lender. HUD
handbooks and mortgagee letters provide detailed processing instructions and advise the
mortgage industry of major changes to FHA programs and procedures, and there continues to be
congressional interest in audits of the HECM program.

First Call Mortgage Company (First Call) was a mortgage company that received approval from
HUD to originate FHA single-family insured loans, including HECM loans, in February 2004.
Its home office was located in Andover, Massachusetts, with a branch office in Portsmouth, New
Hampshire. First Call originated 234 HECM loans between January 2007 and December 2008.
Five different HECM lenders sponsored these loans. Sponsors are responsible for the proper
underwriting and closing of the loans originated by lenders, such as First Call, on behalf of the
sponsor. James B. Nutter and Company (J.B. Nutter) based in Kansas City, Missouri, sponsored
204 (or 87 percent) of the 234 loans originated by First Call. J.B. Nutter was incorporated in
1955 and became an approved FHA lender in 1957.

In September 2008, state banking regulators from Massachusetts and New Hampshire issued
orders for First Call to cease and desist because of deceptive business practices. The reverse
mortgage concerns cited by the bank examiners were primarily consumer disclosure issues,

1
    The acronyms HUD and FHA are often used interchangeably.


                                                      4
missing counseling certificates, and making reverse loans without explicit state approval2. First
Call no longer exists, and the assets of the company were purchased by Direct Finance
Corporation, Hanover, Massachusetts (another FHA-approved lender), in October 2008.

The primary purpose of our review was to determine whether the sponsoring lender, J.B. Nutter,
acted in a prudent manner and complied with HUD’s regulations, procedures, and instructions
for the underwriting and closing of FHA-insured HECM loans.




2
  Massachusetts law requires lenders intending to make reverse mortgage loans to submit for the Division's approval,
a program that meets specific criteria set forth in Massachusetts General Laws Chapter 167E, section 7, and made
applicable to lenders through Massachusetts General Laws chapter 183, section 67.


                                                         5
                                 RESULTS OF AUDIT

J.B. Nutter acted in a prudent manner and complied with HUD’s regulations, procedures, and
instructions for the underwriting and closing of FHA-insured HECM loans selected for review.
Specifically, no significant deficiencies were identified from a review of a random sample of 30
loans with regard to the critical origination or closing loan documents. We also verified that the
information submitted to HUD was consistent with the information in the lender’s own file with
no exceptions noted. In addition, we analyzed the information from the 30 loans further with
additional investigative tools, and no exceptions were found regarding the borrowers’ residency,
age, Social Security number validity, deed record, and property assessed values (see Appendix).
Finally, J.B. Nutter had not filed a claim on any of the loans in our sample as of August 5, 2009.


                                           Conclusion

The review of the 30 loans did not identify any reportable deficiencies. The review showed that
J.B. Nutter acted in a prudent manner and complied with HUD’s regulations, procedures, and
instructions for the underwriting and closing of the 30 FHA-insured HECM loans selected for
review.

Based on our audit, we did not identify any reportable conditions or deficiencies (see also
Appendix). Therefore, we are not making any recommendations.




                                                6
                             SCOPE AND METHODOLOGY

Our review generally covered the period January 1, 2007, through December 31, 2008. We
conducted our work from May through August 2009. We primarily carried out our work at the
HUD Office of Inspector General (OIG) field office in Hartford, Connecticut. We focused the audit
on the lenders’ loan origination, underwriting, and quality control operations.

To achieve our objectives, we

     •    Identified, obtained, and reviewed relevant regulations pertaining to the origination of
          single-family home equity conversion mortgages, including the Code of Federal
          Regulations, HUD handbooks, mortgagee letters, and the United States Code.
     •    Interviewed appropriate lender and HUD officials as necessary.
     •    Selected a sample of 30 FHA-insured HECM loans.
     •    Obtained and analyzed critical documents from the loan origination files maintained by
          HUD and J.B. Nutter (see Appendix).
     •    Verified that the information submitted to HUD was consistent with the information in
          the lender’s own file.
     •    Used other investigative tools and methods to verify borrowers’ residency, age, Social
          Security number validity, deed record, and property assessed values.

We randomly selected a nonstatistical random sample of 30 FHA-insured loans for review out of
199 that were originated by First Call and sponsored by J.B. Nutter. For surveying purposes, we
determined it to be appropriate to use a nonstatistical random sample, which assisted the auditor in
determining whether any errors could be significant to the audit objective. First Call originated 234
HECM loans during the audit period. J.B. Nutter sponsored 204 (87 percent) of these loans.
However, only 199 of the 204 loans had active FHA insurance when we began the audit. Therefore,
the 30 loans selected were from the universe of 199 loans sponsored by J.B. Nutter that had active
FHA insurance when audit began. The sample was randomly drawn using auditing computer
software.

We relied on information from systems used by HUD (including Single Family Neighborhood
Watch and Single Family Housing Enterprise Data Warehouse),3 verified that the information
submitted to HUD was consistent with the information in the lender’s own file, and used
LexisNexis Investigative Portal to verify borrowers’ residency, age, Social Security number
validity, deed record, and property assessed values. LexisNexis is a web-based search tool that

3
 The Single Family Neighborhood Watch system is a web-based comprehensive data processing, automated
querying, reporting and analysis system designed to highlight exceptions to lending practices to high-risk mortgages,
so that potential problems that may arise are readily identifiable. The Single Family Housing Enterprise Data
Warehouse is a large and extensive collection of database tables organized and dedicated to support the analysis,
verification, and publication of single-family housing data. The data is structured to provide HUD users easy and
efficient access to Single Family Housing case-level data on properties and associated loans, insurance, claims,
defaults, and demographics.


                                                         7
provides access to billions of public records, news, businesses, legal records, and other types of
information, which helps locate individuals, businesses, and assets. Other evidence supported the
information obtained; therefore, we determined that the data were sufficiently reliable for our
purposes. The corroborating evidence independently supports our conclusions.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                8
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

   •   Program operations,
   •   Relevance and reliability of information,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding of assets and resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.




 Relevant Internal Controls


              We determined that the following internal controls were relevant to our audit
              objective:

              •       Controls over program operations.
              •       Controls over the validity and reliability of data.
              •       Controls over compliance with laws and regulations.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.


 Significant Weaknesses


              We found no significant internal control weaknesses within the scope of our audit.




                                                9
                   FOLLOW-UP ON PRIOR AUDITS


James B. Nutter Did Not Meet
HUD’s or Its Own Quality
Control Requirements
Regarding the Number of
Loans to Review; Audit Report
No. 2008-KC-1005

           OIG previously reviewed J.B. Nutter’s quality control program and issued an
           audit report in September 2008 (see OIG Audit Report No. 2008-KC-1005). We
           concluded that for six months in 2007 and 2008, J.B. Nutter did not meet HUD’s
           or its own quality control requirements regarding the number of loans to review.
           We recommended that HUD ensure that J.B. Nutter follows HUD requirements
           regarding the minimum number of endorsed loans to be reviewed for quality
           control purposes. The corrective action was pending as of September 2, 2009.




                                           10
                                        APPENDIX


  ANALYSIS OF CRITICAL DOCUMENTS FROM THE LOAN
                 ORIGINATION FILES

For the sample of 30 FHA-insured HECM loans, we obtained and analyzed critical documents
from the loan origination files maintained by HUD and J.B. Nutter. The descriptions that follow
are not intended to be comprehensive but serve as a guide to key issues regarding each loan.
Below is a summary of our review of the loans as follows:

   •   Residential loan application for reverse mortgages (Federal National Mortgage
       Association (FNMA) form 1009) – Verified the borrowers’ date of birth and type of
       property for program eligibility. The youngest borrower shall be 62 years of age or older
       at the time the lender submits the application for insurance. Confirmed borrower’s
       request for a face-to-face interview and/or telephone interview for completing the loan
       application. No exceptions noted.

   •   Property appraisal – Ensured that the condition of the property met HUD/FHA minimum
       property standards for existing properties and was completed in a prudent manner.
       Reviewed information on the appraisal to ensure that the data on the form were consistent
       with the loan. No exceptions noted.

   •   Certificate of HECM counseling – The lender must explain to a potential HECM
       borrower that the HECM program requires counseling and refer the client to a list of
       HUD-approved entities eligible to provide HECM counseling. Reviewed the acceptable
       listing of entities eligible to provide HECM counseling and permissible types of
       counseling acceptable. Reviewed and verified (1) the dates when the counseling took
       place, (2) acceptable means of documenting that the potential HECM borrower received
       counseling, and (3) whether the lender charged the borrower any fees before receiving the
       required HECM counseling certificate. Reviewed the method of counseling and
       confirmed the borrower’s request for a face-to-face and/or telephone interview with the
       counseling entity. No exceptions noted.

   •   Waiver to HECM counseling requirement – HUD may waive the HECM counseling
       requirement for HECM borrowers who are refinancing into a new HECM mortgage and
       choose not to receive counseling. Reviewed the uniform residential loan application or
       FNMA form 1009 to verify whether the HECM was a refinance. Verified written
       documentation of the required conditions if the HECM borrowers chose to waive the
       HECM counseling. Documentation must ensure that all of the following conditions were
       met: (1) the HECM borrower received the antichurning disclosure form required by law,
       (2) the increase in the borrower’s principal limit exceeds the total cost of the refinancing




                                                11
         by five times, and (3) the timing between the closing on the original HECM loan and the
         date of the application for refinancing does not exceed five years. No exceptions noted.

    •    Interest rate lock provision – The expected rate lock provision for HECMs is 120 days.
         The expected interest rate is used to calculate the principal limit for HECMs and is
         established based upon the date in which the initial loan application is signed by the
         borrower. No exceptions noted.

    •    Source of funds for closing – The lender must document the borrower’s source of funds
         in accordance with established guidelines. With the exception of the origination fee, the
         borrower is allowed to finance 100 percent of the closing costs. No exceptions noted.

    •    HECM loan agreement and related exhibits – Reviewed loan agreement and payment
         history to confirm that the payment method elected by the borrower was consistent with
         the lender’s disbursement schedule. The five HECM payment options available to the
         borrower are (1) tenure, (2) term, (3) line of credit, (4) modified tenure, and (5) modified
         term4. Reviewed type of interest rate selected (fixed or adjustable), assignment option,
         and mortgage insurance option elected. No exceptions noted.

    •    Evidence of calculations for principal limit and monthly payment amount – Reviewed
         calculations based on borrower’s age, appraised value of the property, expected interest
         rate, loan costs and fees, and maximum claim amount. Examined the maximum
         mortgage worksheet, HECM loan agreement, disbursement history, draw requests, repair
         rider, and allowable fees. No exceptions noted.

    •    Credit reports – Verified borrowers’ birth date and age. The youngest borrower(s) must
         be 62 years of age or older. No exceptions noted.

    •    Compliance inspection report – Reviewed report for completion of all required repairs
         with appropriate supporting documentation. No exceptions noted.

    •    HUD 1 settlement sheet – Checked for disallowable fees or charges to the borrower.
         Origination fee limited to the greater of $2,000 or 2 percent of the maximum claim



4
  Under tenure payment plan, the borrower will receive equal monthly payments from the lender for as long as the
borrower lives and continues to occupy the property as a principal residence. Under the term payment plan, the
borrower will receive equal monthly payments from the lender for a fixed period of months selected by the
borrower. Under the line of credit payment plan, the borrower will receive the mortgage proceeds in unscheduled
payments or in installments, at times and in amounts of the borrower's choosing, until the line of credit is exhausted.
Under the modified tenure payment plan, the borrower may combine a line of credit with monthly payments for life,
or for as long as the borrower continues to live in the home as a principal residence. In exchange for reduced
monthly payments, the borrower will set aside a specified amount of money for a line of credit, on which he or she
can draw until the line of credit is exhausted. Under the modified term payment plan, the borrower may combine a
line of credit with monthly payments for a fixed period of months selected by the borrower. In exchange for
reduced monthly payments, the borrower will set aside a specified amount of money for a line of credit, on which he
or she can draw until the line of credit is exhausted.


                                                          12
        amount5. For repairs required to be completed after closing, the lender shall set aside a
        portion of the principal limit equal to 150 percent of the estimated cost of repairs, plus the
        repair administration fee. Calculated the amount of funds set aside for repairs. If
        requested by borrower, reviewed the portion of the principal limit set aside for the
        payment of taxes, ground rents, flood and hazard insurance premiums, and assessments.
        Checked the initial disbursement date of mortgage proceeds. Mortgage proceeds may not
        be disbursed until the expiration of the three-day rescission period (certain fees or
        charges may be exceptions). Checked the title insurance commitment reported on the
        HUD-1 to ensure that it was at least equal to the maximum claim amount. No exceptions
        noted.

    •   Security instrument(s), mortgage(s), note(s), and repair rider – HECMs are nonrecourse
        loans. Validity and enforceability of the mortgage and note will depend on compliance
        with state law. Reviewed state requirements. Compared legal documents to form HUD-
        92900-A, Direct Endorsement Approval for a HUD/FHA –Insured Mortgage, for the
        proper interest rate. Real property secured by HECMs in Texas must use the Texas-
        approved documents as outlined in Mortgagee Letter 00-34. Examined the repair rider to
        ensure that all repairs and disbursements were completed as outlined in the rider. No
        exceptions noted.

    •   Miscellaneous fees – Reviewed lender fees for a plan type change, term change,
        unscheduled lump sum payment, or suspension of a payment. These fees are limited to
        $20 per occurrence. Looked at the servicing fees charged by the lender for annually
        adjusting interest ($30 per month maximum fee) or monthly adjusting interest ($35 per
        month maximum fee) fees charged for servicing. Servicing fees were taken from the
        principal limit and set aside in a lump sum at closing, then taken from the set-aside every
        month and added to the loan balance. No exceptions noted.

    •   Disclosures – Form HUD-92901, Anti-Churning Disclosure, must be provided to all
        HECM borrowers seeking to refinance an existing HECM6. The required information to
        be disclosed includes the total cost of the new mortgage, based on the projected future
        loan balance; all fees and charges associated with the refinanced HECM; a new
        maximum mortgage limit; and the new funding that will be available to the borrower.
        Reviewed information included in the HUD-92901, the Real Estate Settlement
        Procedures Act, the Truth in Lending Act, the good faith estimate, and Regulation Z
        requirements (lender must determine whether the HECM loan is open-end or closed-end
        line of credit). No exceptions noted.




5
  The maximum claim amount is the lesser of the appraised value of the property or the maximum mortgage amount
for a one-family residence that HUD will insure in an area under Section 203(b)(2) of the National Housing Act.
The maximum claim amount is established when the Conditional Commitment is issued and represents the
maximum amount that HUD will pay on a claim for insurance benefits.
6
  This disclosure is designed to prevent “churning,” an irresponsible lending practice whereby lenders engage in
multiple refinancing to generate additional profit from loan fees and charges. The “churned” mortgages are not
made in the interest of the borrower and provide no financial benefit to the borrower.


                                                      13
   •   Checked the type of HECM selected by the borrower – Regulation Z requires accurate
       disclosure statements for open-end credit. If the borrower chooses an adjustable interest
       rate HECM, the lender must provide an adjustable-rate mortgage disclosure statement to
       the borrower. Examined the right of rescission disclosure for proper timing allowed for
       cancellation. This form allows the borrower the right to cancel the HECM loan within
       three business days of closing. No exceptions noted.

   •   Mortgage insurance premium options – One of two options must be chosen before
       requesting endorsement for insurance. The assignment option allows the lender to assign
       the mortgage to HUD when the outstanding balance is equal to or greater than 98 percent
       of the maximum claim amount or when a request for a line of credit draw will cause the
       outstanding balance to equal or exceed 98 percent of the maximum claim amount. The
       lender must be current with all payments owed to the homeowner. The shared premium
       option allows the lender to hold the loan for its entire term and retain a portion of the
       monthly premium. If the outstanding balance exceeds the property value at the time that
       the mortgage is due and payable, the lender receives insurance benefits up to the
       maximum claim amount and compensates for any losses with retained mortgage
       insurance premiums. No exceptions noted.

   •   Deed to property – Reviewed current deed to property and title commitment report to
       ensure that all owners with an interest in the property will be included on the HECM
       mortgage(s). Failure to include all owners on the mortgage may compromise the security
       interest in the property at time of transfer, assignment, or foreclosure. No exceptions
       noted.


The information analyzed from the 30 loans resulted in no exceptions being found regarding the
critical documents from the loan origination files maintained by HUD and J.B. Nutter or the
borrowers’ residency, age, Social Security number validity, deed record, and property assessed
values.




                                               14
